David J. Wool, Esq.
ANDRUS WAGSTAFF, PC
940 North Lincoln Street
Denver, Colorado 80220
Dwool@Wagstafflawfirm.com
(303) 376-6360

via ECF only

September 10, 2021

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Monsanto Company v. Edwin Hardeman, No 21-241
Dear Mr. Harris:
I represent respondent in the above-referenced case. The petition for a writ of certiorari
was filed on August 16, 2021, and a response was requested on September 3, 2021. The brief in
opposition is currently due on October 4, 2021.
I respectfully request a 30-day extension of time for filing the brief in opposition, which
would make the brief due on November 3, 2021. This request is being made because of a number
of other pressing commitments that my co-counsel and I have on other cases.
Petitioner consents to this request. Thank you for your consideration.
Sincerely,

David J. Wool
Cc: Seth Waxman, Petitioner’s Counsel

